     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

May 5, 2010

Report Number: A-07-09-00309

Mr. Ron Simmons
Controller
Blue Cross Blue Shield of Kansas
1133 SW Topeka Boulevard
Topeka, KS 66612

Dear Mr. Simmons:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Kansas for Fiscal Years 1994 Through 2008. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00309
in all correspondence.

                                             Sincerely,




                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Ron Simmons

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF PENSION COSTS
    CLAIMED FOR MEDICARE
      REIMBURSEMENT BY
  BLUE CROSS BLUE SHIELD OF
   KANSAS FOR FISCAL YEARS
     1994 THROUGH 2008




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-07-09-00309
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices


      THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires
  that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Parts A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective February 29, 2008.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards, and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Kansas claimed for
Medicare reimbursement for fiscal years (FY) 1994 through 2008.

SUMMARY OF FINDING

Kansas did not claim $883,591 of allowable Medicare pension costs on its Final Administrative
Cost Proposals (FACP) for FYs 1994 through 2008, primarily because Kansas made adjustments
to its pension costs claimed on its FACPs for FYs 1995 and 1996, adjustments that reduced the
claimed amount to less than the calculated allowable pension costs. Kansas claimed pension
costs of $14,986,885 for Medicare reimbursement; however, we determined that the allowable
Cost Accounting Standards pension costs were $15,870,476.

RECOMMENDATION

We recommend that Kansas revise its FACPs for FYs 1994 through 2008 to claim the additional
allowable pension costs of $883,591.

AUDITEE COMMENTS

In written comments on our draft report, Kansas concurred with our recommendation. Kansas
stated that it intends to include the increase in allowable pension costs due from CMS as part of
the global settlement of the contractor termination costs associated with our terminated Medicare
Part A and Medicare Part B contracts.

Kansas’s comments are included in their entirety as Appendix B.




                                                i
OFFICE OF INSPECTOR GENERAL RESPONSE

Kansas concurred with the recommendation; however, due to revisions made to our Medicare
segment pension assets review (Review of the Qualified Pension Plan at Blue Cross Blue Shield
of Kansas, a Terminated Medicare Contractor, for the Period January 1, 1993, to
February 29, 2008, A-07-09-00308), some of the specific amounts of allowable pension costs
changed. We incorporated those changes into this report and revised our finding and
recommendation accordingly. Since we revised our finding and recommendation in this report,
we provided Kansas with an opportunity to review and discuss our revisions.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Kansas ...................................................................... 1
              Medicare Reimbursement ................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 2

FINDING AND RECOMMENDATION ................................................................................ 2

          FEDERAL REQUIREMENTS....................................................................................... 2

          ALLOWABLE PENSION COSTS NOT CLAIMED .................................................... 3

          RECOMMENDATION .................................................................................................. 4

          AUDITEE COMMENTS................................................................................................ 4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 4

APPENDIXES

     A: ALLOWABLE MEDICARE PENSION COSTS FOR BLUE CROSS BLUE
        SHIELD OF KANSAS FOR FISCAL YEARS 1994 THROUGH 2008

     B: AUDITEE COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Kansas

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Parts A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective February 29, 2008.

Medicare Reimbursement

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Kansas claimed for
Medicare reimbursement for FYs 1994 through 2008.

Scope

We reviewed $14,986,885 of pension costs that Kansas claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 1994 through 2008. Achieving our
objective did not require that we review Kansas’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at Kansas’s office in Topeka, Kansas, during February 2009.
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Kansas’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 1994 through 2008. We also determined the extent to which Kansas
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Kansas’s historical practices and on the results of our
segmentation review (Review of the Qualified Pension Plan at Blue Cross Blue Shield of Kansas,
a Terminated Medicare Contractor, for the Period January 1, 1993, to February 29, 2008,
A-07-09-00308).

In performing our review, we used information that Kansas’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined Kansas’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Kansas did not claim $883,591 of allowable Medicare pension costs on its FACPs for FYs 1994
through 2008, primarily because Kansas made adjustments to its pension costs claimed on its
FACPs for FYs 1995 and 1996, adjustments that reduced the claimed amount to less than the
calculated allowable pension costs. Kansas claimed pension costs of $14,986,885 for Medicare
reimbursement; however, we determined that the allowable CAS pension costs were
$15,870,476.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.




                                               2
CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

Kansas did not claim $883,591 of pension costs that were allowable for Medicare reimbursement
for FYs 1994 through 2008. 1 During FYs 1994 through 2008 Kansas claimed pension costs of
$14,986,885 for Medicare reimbursement. We calculated the allowable pension costs based on
separately computed CAS pension costs for the Medicare segment and the “Other” segment in
accordance with CAS 412 and 413. We determined that the allowable CAS pension costs for
FYs 1994 through 2008 were $15,870,476.

The following table compares allowable CAS pension costs with the pension costs claimed on
Kansas’s FACPs. Appendix A contains additional details on allowable pension costs.

              Comparison of Allowable Pension Costs and Claimed Pension Costs

                                     Medicare Pension Costs
                                     Allowable Claimed by
                        Fiscal Year Per Audit      Kansas                    Difference
                           1994        $623,451     $567,163                    $56,288
                           1995         549,191      251,157                    298,034
                           1996         614,411      225,706                    388,705
                           1997         539,769      490,068                      49,701
                           1998         234,764      147,035                      87,729
                           1999         153,714       97,772                      55,942
                           2000         128,236        (889)                    129,125
                           2001         530,009      558,360                    (28,351)
                           2002         822,993      871,639                    (48,646)
                           2003       1,484,583    1,557,707                    (73,124)
                           2004       1,815,347    1,821,585                     (6,238)
                           2005       2,231,766    2,143,088                      88,678
                           2006       2,561,238    2,576,594                    (15,356)
                           2007       2,542,470    2,609,618                    (67,148)
                           2008       1,038,534    1,070,282                    (31,748)
                           Total    $15,870,476 $14,986,885                   $883,591



1
 The allowable pension costs for FY 2008 were attributable to the pension costs for October 1, 2007, through
February 29, 2008.



                                                        3
This underclaim occurred primarily because Kansas made adjustments to its pension costs
claimed on its FACPs for FY 1995 and 1996, adjustments that reduced the claimed amount to
less than the calculated allowable pension costs. As a result, Kansas did not claim $883,591 of
allowable pension costs.

RECOMMENDATION

We recommend that Kansas revise its FACPs for FYs 1994 through 2008 to claim the additional
allowable pension costs of $883,591.

AUDITEE COMMENTS

In written comments on our draft report, Kansas concurred with our recommendation. Kansas
stated that it intends to include the increase in allowable pension costs due from CMS as part of
the global settlement of the contractor termination costs associated with our terminated Medicare
Part A and Medicare Part B contracts.

Kansas’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Kansas concurred with the recommendation; however, due to revisions made to the Medicare
segment pension assets mentioned earlier (Review of the Qualified Pension Plan at Blue Cross
Blue Shield of Kansas, a Terminated Medicare Contractor, for the Period January 1, 1993, to
February 29, 2008, A-07-09-00308), some of the specific amounts of allowable pension costs
changed. We incorporated those changes into this report and revised our finding and
recommendation accordingly. Since we revised our finding and recommendation in this report,
we provided Kansas with an opportunity to review and discuss our revisions.




                                                4
APPENDIXES




    5
                          APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR                                          Page 1 of9
                                   BLUE CROSS BLUE SHIELD OF KANSAS
                                  FOR FISCAL YEARS 1994 THROUGH 2008

                                                                Total            "Other"            Medicare          Total
      Date           I        Description                   I 
Company       I   Segment        I   Segment     I    Medicare

      1993           Allocable Pension Cost            11                        $1,673,938          $344,732

     1994 
          Contributions                     21      $3,301,750        $3,301,750                $0
    8.00% 
          DiscOlmt for Interest             31       ($163,596)        ($163,596)               $0
January 1, 1994 
    Present Value Contributions       41      $3,138,154        $3,138,154                $0
                     Prepaj'IIlent Credit Al'l'lied    51      $2,571 ,513       $2,033,246          $538,267
                     Present Value of Funding          61      $5,709,667        $5,171,400          $538,267

Jan1lilI)' 1, 1994   CAS FundiIJg Target               71      $2,839,420        $2,301 ,153         $538,267
                     Percentage Funded                 81                           100.00%           100.00%
                     Funded Pension Cost               91                        $2,301,153          $538,267
                     Allowable Interest               101                           $13,966                $0
                     Allocable Pension Cost           111                        $2,315,119          $538,267
      1994           Fiscal Year Pension Cost         121                        $2,154,824          $489,883
                     Medicare LOB* Percentage         131                             7.94%            92.34%

                     Allowable Pension Cost           141                          $171,093          $452,358          $623,451

     1995 
          Contributions                             $4,841,435        $4,841,435                $0
    8.50% 
          DisCOllllt for Interest                    ($296,448)        ($296,448)               $0
January 1, 1995 
    Present Value Contributions               $4,544,987        $4,544,987                $0
                     Prepaj'IIlent Credit Apl'lied             $2,336,794        $1,931,577          $405,217
                     Present Value of Funding                  $6,881,781        $6,476,564          $405,217

January 1, 1995      CAS Funding Target                        $2,336,794        $1,931,577          $405,217
                     Percentage Funded                                               100.00%          100.00%
                     Funded Pension Cost                                         $1,931,577          $405,217
                     Allowable Interest                                                    $0              $0
                     Allocable Pension Cost                                      $1 ,931 ,577        $405,217
      1995           Fiscal Year Pension Cost                                    $2,027,463          $438,480
                     Medicare LOB* Percentage                                          7.50%           90.57%

                     Allowable Pension Cost                                        $152,060          $397,131          $549,191
                                                                             I                  I               I
                                                                                                              Page 2 of9



                                                          Total            "Other"           Medicare           Total
      Date           I       Description             I   Company       I   Segment       I   Segment      I    Medicare

     1996 
          Contributions                       $3,439,843        $3,439,843               $0
    8.50% 
          DisCOllllt for Interest              ($259,267)        ($259,267)              $0
January I , 1996 
   Present Value Contributions         $3,180,576        $3,180,576               $0
                     Prepaj'IIlent Credit Apl'lied       $3,409,353        $2,893,529         $515,824
                     Present Value of Funding            $6,589,929        $6,074,105         $515,824

January I, 1996      CAS Funding Target                  $3,409,353        $2,893,529         $515,824
                     Percentage Funded                                        100.00%          100.00%
                     Funded Pension Cost                                   $2,893,529         $515,824
                     Allowable Interest                                            $0               $0
                     Allocable Pension Cost                                $2,893,529         $515,824
      1996           Fiscal Year Pension Cost                              $2,653,041         $488,172
                     Medicare LOB* Percentage                                   6.74%           89.23%

                     Allowable Pension Cost                                  $178,815         $435,596           $614,411

     1997 
          Contributions                         $950,670          $950,670               $0
    8.50% 
          DiscOlmt for Interest                 ($60,624)         ($60,624)              $0
January I, 1997 
    Present Value Contributions           $890,046          $890,046               $0
                     Prepayment Credit Apl'lied          $2,986,783        $2,580,342         $406,441
                     Present Value of Funding            $3,876,829        $3,470,388         $406,441

Jan1lilI)' I, 1997   CAS FundiIJg Target                 $2,986,783        $2,580,342         $406,441
                     Percentage Funded                                        100.00%          100.00%
                     Funded Pension Cost                                   $2,580,342         $406,441
                     Allowable Interest                                            $0               $0
                     Allocable Pension Cost                                $2,580,342         $406,441
      1997           Fiscal Year Pension Cost                              $2,658,639         $433,787
                     Medicare LOB* Percentage                                   4.67%           95.81 %

                     Allowable Pension Cost                                  $124,158         $415,611           $539,769
                                                                       I                 I                I
                                                                                                              Page 3 of9



                                                          Total            "Other"           Medicare           Total
      Date           I       Description             I   Company       I   Segment       I   Segment      I    Medicare

     1998 
          Contributions                               $0                $0               $0
    900% 
           DisCOllllt for Interest                     $0                $0               $0
January 1, 1998 
    Present Value Contributions                 $0                $0               $0
                     Prepaj'IIlent Credit Apl'lied       $2,849,648        $2,849,648               $0
                     Present Value of Funding            $2,849,648        $2,849,648               $0

January 1, 1998      CAS Funding Target                  $2,849,648        $2,849,648               $0
                     Percentage Funded                                        100.00%            0.00%
                     Funded Pension Cost                                   $2,849,648               $0
                     Allowable Interest                                            $0               $0
                     Allocable Pension Cost                                $2,849,648               $0
      1998           Fiscal Year Pension Cost                              $2,782,322         $101,610
                     Medicare LOB* Percentage                                   4.90%           96.87%

                     Allowable Pension Cost                                  $136,334          $98,430           $234,764

     1999 
          Contributions                         $738,484          $716,571          $21,913
    900% 
           DiscOlmt for Interest                 ($59,939)         ($58,160)         ($1,779)
January 1, 1999 
    Present Value Contributions           $678,545          $658,411          $20,134
                     Prepayment Credit Apl'lied          $1,510,737        $1,465,839          $44,898
                     Present Value of Funding            $2,189,282        $2,124,250          $65,032

Jan1lilI)' 1, 1999   CAS FundiIJg Target                 $2,188,246        $2,123,214          $65,032
                     Percentage Funded                                        100.00%          100.00%
                     Funded Pension Cost                                   $2,123,214          $65,032
                     Allowable Interest                                       $41,908           $1,284
                     Allocable Pension Cost                                $2,165,122          $66,316
      1999           Fiscal Year Pension Cost                              $2,336,254          $49,737
                     Medicare LOB* Percentage                                   4.51%           97.21 %

                     Allowable Pension Cost                                  $105,365          $48,349           $153,714
                                                                       I                 I                I
                                                                                                                Page 4 of9



                                                          Total             "Other"            Medicare           Total
      Date           I       Description             I   Company        I   Segment        I   Segment      I    Medicare

     2000 
          Contributions                         $141,267            $17,235          $124,032
    900% 
           DisCOllllt for Interest               ($10,635)           ($1,297)          ($9,338)
January I , 2000 
   Present Value Contributions           $130,632            $15,938          $114,694
                     Prepaj'IIlent Credit Apl'lied           $1,129               $137              $992
                     Present Value of Funding              $131,761            $16,075          $115,686

January I, 2000      CAS Funding Target                    $131,685            $15,999          $115,686
                     Percentage Funded                                         100.00%           100.00%
                     Funded Pension Cost                                       $15,999          $115,686
                     Allowable Interest                                         $1,011            $7,312
                     Allocable Pension Cost                                    $17,010          $122,998
      2000           Fiscal Year Pension Cost                                 $554,038          $108,828
                     Medicare LOB* Percentage                                    4.10%            96.96%

                     Allowable Pension Cost                                    $22,716          $105,520           $128,236

     2001 
          Contributions                       $20,157,250        $19,606,270         $550,980
    900% 
           DiscOlmt for Interest               ($1,523,555)       ($1,481,910)        ($41,645)
January I , 2001 
   Present Value Contributions         $18,633,695        $18,124,360         $509,335
                     Prepayment Credit Apl'lied                  $82                $72              $10
                     Present Value of Funding            $18,633,777        $18,124,432         $509,345

Jan1lilI)' I, 2001   CAS FundiIJg Target                  $4,018,200         $3,508,855         $509,345
                     Percentage Funded                                          100.00%          100.00%
                     Funded Pension Cost                                     $3,508,855         $509,345
                     Allowable Interest                                        $223,685          $32,470
                     Allocable Pension Cost                                  $3,732,540         $541,815
      2001           Fiscal Year Pension Cost                                $2,803,658         $437,111
                     Medicare LOB* Percentage                                     3.75%           97.20%

                     Allowable Pension Cost                                   $105,137          $424,872           $530,009
                                                                        I                  I                I
                                                                                                                 Page 5 of9



                                                          Total             "Other"            Medicare            Total
      Date           I       Description             I   Company        I   Segment        I   Segment       I    Medicare

     2002 
          Contributions                       $31,500,000        $31,500,000               $0
    900% 
           DisCOllllt for Interest             ($2,600,917)       ($2,600,917)              $0
January I , 2002 
   Present Value Contributions         $28,899,083        $28,899,083               $0
                     Prepaj'IIlent Credit Apl'lied        $5,807,230         $5,122,632         $684,598
                     Present Value of Funding            $34,706,313        $34,021 ,715        $684,598

January I, 2002      CAS Funding Target                   $5,807,230         $5,122,632         $684,598
                     Percentage Funded                                          100.00%          100.00%
                     Funded Pension Cost                                     $5,122,632         $684,598
                     Allowable Interest                                              $0               $0
                     Allocable Pension Cost                                  $5,122,632         $684,598
      2002           Fiscal Year Pension Cost                                $4,775,109         $648,902
                     Medicare LOB* Percentage                                     401%            97.32%

                     Allowable Pension Cost                                   $191,482          $631 ,511           $822,993

     2003 
          Contributions                       $35,100,000        $35,100,000                $0
    8.50% 
          DiscOlmt for Interest               ($2,749,770)       ($2,749,770)               $0
January I , 2003 
   Present Value Contributions         $32,350,230        $32,350,230                $0
                     Prepayment Credit Apl'lied          $10,120,064         $8,808,011        $1,312,053
                     Present Value of Funding            $42,470,294        $41,158,241        $1,312,053

Jan1lilI)' I, 2003   CAS FundiIJg Target                 $10,120,064         $8,808,011        $1 ,312,053
                     Percentage Funded                                          100.00%            100.00%
                     Funded Pension Cost                                     $8,808,011        $1 ,312,053
                     Allowable Interest                                              $0                 $0
                     Allocable Pension Cost                                  $8,808,011        $1 ,312,053
      2003           Fiscal Year Pension Cost                                $7,886,666        $1,155,189
                     Medicare LOB* Percentage                                     4.43%             98.27%

                     Allowable Pension Cost                                   $349,379         $1 ,135,204        $1,484,583
                                                                        I                  I                 I
                                                                                                                 Page 6 of9



                                                           Total             "Other"            Medicare           Total
      Date            I       Description             I   Company        I   Segment        I   Segment      I    Medicare

     2004 
           Contributions                       $16,000,000        $16,000,000                $0
    8.50% 
           DisCOllllt for Interest             ($1,253,456)       ($1,253,456)               $0
January I, 2004 
     Present Value Contributions         $14,746,544        $14,7 46,544               $0
                      Prepaj'IIlent Credit Apl'lied       $10,705,831         $9,422,929        $1,282,902
                      Present Value of Funding            $25,452,375        $24,169,473        $1,282,902

January I, 2004       CAS Funding Target                  $10,705,831         $9,422,929        $1,282,902
                      Percentage Funded                                          100.00%           100.00%
                      Funded Pension Cost                                     $9,422,929        $1,282,902
                      Allowable Interest                                              $0                $0
                      Allocable Pension Cost                                  $9,422,929        $1,282,902
      2004            Fiscal Year Pension Cost                                $9,269,200        $1,290,190
                      Medicare LOB* Percentage                                     5.77%            99.25%

                      Allowable Pension Cost                                   $534,833         $1,280,514        $1,815,347

     2005 
           Contributions                       $13,000,000        $13,000,000                $0
    8.00% 
           DiscOlmt for Interest                 ($962,963)         ($962,963)               $0
January I, 2005 
     Present Value Contributions         $12,037,037        $12,037,037                $0
                      Prepayment Credit Apl'lied          $13,022,244        $11,451,980        $1,570,264
                      Present Value of Funding            $25,059,281        $23,489,017        $1,570,264

J an1lilI)' I, 2005   CAS FundiIJg Target                 $13,022,244        $11,451,980        $1,570,264
                      Percentage Funded                                          100.00%           100.00%
                      Funded Pension Cost                                    $11,451,980        $1,570,264
                      Allowable Interest                                              $0                $0
                      Allocable Pension Cost                                 $11,451,980        $1,570,264
      2005            Fiscal Year Pension Cost                               $10,944,717        $1,498,424
                      Medicare LOB* Percentage                                     6.71%            99.93%

                      Allowable Pension Cost                                   $734,391         $1,497,375        $2,231,766
                                                                         I                  I                I
                                                                                                                Page 7 of9



                                                          Total             "Other"            Medicare           Total
      Date           I       Description             I   Company        I   Segment        I   Segment      I    Medicare

     2006 
          Contributions                        $7,000,000         $7,000,000                $0
    8.00% 
          DisCOllllt for Interest               ($518,519)         ($518,519)               $0
January I , 2006 
   Present Value Contributions          $6,481,481         $6,481,481                $0
                     Prepaj'IIlent Credit Apl'lied       $14,185,403        $12,346,050        $1,839,353
                     Present Value of Funding            $20,666,884        $18,827,531        $1,839,353

January I, 2006      CAS Funding Target                  $14,185,403        $12,346,050        $1,839,353
                     Percentage Funded                                          100.00%           100.00%
                     Funded Pension Cost                                    $12,346,050        $1,839,353
                     Allowable Interest                                              $0                $0
                     Allocable Pension Cost                                 $12,346,050        $1,839,353
      2006           Fiscal Year Pension Cost                               $12,122,533        $1,772,081
                     Medicare LOB* Percentage                                     6.58%            99.52%

                     Allowable Pension Cost                                   $797,663         $1,763,575        $2,561,238

     2007 
          Contributions                       $15,000,000        $15,000,000                $0
    8.00% 
          DiscOlmt for Interest               ($1,111,111)       ($1,111,111)               $0
January I, 2007 
    Present Value Contributions         $13,888,889        $13,888,889                $0
                     Prepayment Credit Apl'lied          $15,151,567        $13,234,444        $1,917,123
                     Present Value of Funding            $29,040,456        $27,123,333        $1,917,123

Jan1lilI)' I, 2007   CAS FundiIJg Target                 $15,151,567        $13,234,444        $1,917,123
                     Percentage Funded                                          100.00%           100.00%
                     Funded Pension Cost                                    $13,234,444        $1,917,123
                     Allowable Interest                                              $0                $0
                     Allocable Pension Cost                                 $13,234,444        $1,917,123
      2007           Fiscal Year Pension Cost                               $13,012,346        $1,897,681
                     Medicare LOB* Percentage                                     4.98%            99.83%

                     Allowable Pension Cost                                   $648,015         $1,894,455        $2,542,470
                                                                        I                  I                I
                                                                                                                            Page 8 of9



                                                                    Total            "Other"            Medicare              Total
          Date            I       Description                  I   Company      I    Segment        I   Segment         I    Medicare

          2008            Contributions                                    $0                $0                $0   

         8.00%            DisCOllllt for Interest                          $0                $0                $0   

     January I , 2008     Present Value Contributions                      $0                $0                $0   

                          Prepaj'IIlent Credit Applied             $2,540,156        $2,248,056          $292,100   

                          Present Value of Funding                 $2,540,156        $2,248,056          $292,100   


     January I , 2008 	   CAS Funding Target                       $2,540,156        $2,248,056          $292,100 

                          Percentage Funded                                             100.00%           100.00% 

                          Funded Pension Cost                                        $2,248,056          $292,100 

                          Allowable Interest                                                 $0                $0 

                          Allocable Pension Cost         15/                         $2,248,056          $292,100 

          2008 	          Fiscal Year Pension Cost       16/                         $5,556,667          $771,381
                          Medicare LOB* Percentage                                        4.83%            99.84%

                          Allowable Pension Cost 	                                     $268,387          $770,147            $1,038,534
                                                                                I	                  I                   I
   * Line of business.

FOOTNOTES

lL We obtained the 1993 calendar year allocable pension from our prior review (A-07 -94-01105).

 21 	We obtained Total Company contribution amOllllts and dates of deposit from Internal Revenue Service Form 5500 reports. The
   contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
   within the time allowed for filing tax retwns. We determined the contributions allocated to the Medicare segment during the
   pension segmentation review (A-07 -09-00308). The amOlmts shown for the "Other" segment represent the difference between
   the Total Company and the Medicare segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discOlmt
    the contributions back to their beginning-of-the-year value. For pwposes of this Appendix, we computed the interest as the
    difference between the present value of contributions (at the valuation interest rate) and actual contribution amOlmts.

 4/ The present value of contributions is the value of the contributions discOlmted from the date of deposit back to the first day of
    the plan year. For pwposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the
    final day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.
                                                                                                                         Page 9 of9



 5/ A prepayment credit represents the accumulated value of premature fllllding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year Cost AccOllllting Standards (CAS) fllllding target. A
    prepayment credit is carried fOIWard, with interest, to flllld future CAS pension costs.

 6/ The present value of fllllding represents the present value of contributions plus prepayment credits. This is the amount of 

    fllllding that is available to cover the CAS fllllding target measured at the first day of the plan year. 


 7/ The CAS funding target must be fllllded by current or prepaid contributions to satisfy the fllllding requirement of the Federal 

    Acquisition Regulation (FAR) 3l.205-6(j)(2)(i). 


 8/ The percentage of costs fllllded is a measure of the JXlrtion of the CAS fllllding target that was fllllded during the plan year.
    Because any fllllding in excess of the CAS fllllding target is accollllted for as a prepayment in accordance with CAS 412.50( c)(1)
    (as amended), the fllllded ratio may not exceed 100 percent. We computed the percentage fllllded as the present value of
    fllllding divided by the CAS fllllding target. For pwposes of illustration, the percentage of fllllding has been rollllded to four
    decimals.
 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

10/ We asswned that interest on the fllllded CAS pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not pennit the allowable interest to exceed the interest that would accrue if the CAS funding
    target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

ill The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

121 We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis (October 1
    through September 30). We calculated the FY pension costs as 1/4 of the prior year's costs plus 3/4 of the current year's costs.

13/ We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the LOB percentages based upon information provided by Blue Cross Blue Shield
    of Kansas (Kansas).

14/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage.
    Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the
    Medicare segment's direct pension costs plus "Other" segment pension costs attributable to indirect Medicare operations.

15/ Kansas terminated its Medicare contract on February 29, 2008. Therefore, the 2008 allocable pension costs were for a 2-month
    period only (January 1 through February 29).

16/ The 2008 fiscal year pension costs were for a 5-month period. To calculate the FY 2008 allocable pension costs, we calculated
    the FY pension costs as 1/4 of the prior year's costs plus all of the cwrentyear's costs.
                   APPENDIX B: AUDITEE COMMENTS 



                                          1133 SW Topck.   1!o~lev,,",1         In TOpel<:>. . (785) 19I-7IlOO
                 BlueCross                Topek., KoniO' 66629-<JOOI            In K.n.., - (800) 432-0216
                 BlueShield 

                 of Kans8s . 





March 29, 2010


Report Number: A-07-09-00309

Patrick J. Cogley 

Regional Inspector General 

 For Audit Services 

Department of Health & Human Services 

Region VII 

Room 0429
60 I East l th Street 

Kansas Cit)', Missouri 64106 



Dear Mr. Cogley:

Enclosed is the Blue Cross and Blue Shield of Kansas response \0 the U.S. Depanment of Health
& Human Services, Office of Inspector General (OlG), draft report entitled Review 0/ Pension
COSIS Claimed Jor Medicare Reimbllrsement by Bille Cross Bille Shield oj Kansas for Fiscal
Years 1994 Through 2008.

We are in concurrence with your recommendation. However, since Blue Cross and Blue Shield
of Kansas is no longer a Medicare Contractor, we do not havc acccss to the CMS CAFM system
to resubmit the FACP. Qut intent will be to include the increase in allowable pension costs due
from eMS as part of the global seulement of the contractor tennination costs associated with our
tenninated Mt:dicare A and Medicare B contracts.

If you have any questions or comments related    10   our response, please do nOl hesitate to contact
me at (785) 291-8893 .




£:U~~
Ronald D. Simmons
Controller
